Audit Report

Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention, Internet Crimes Against Children Task Force Program, Awarded to the Seattle Police Department, Seattle, Washington

Report No. GR-90-04-010


June 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Internet Crimes Against Children (ICAC) Task Force Program grant, including supplements, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the Seattle Police Department (SPD) Seattle, Washington.  The purpose of this grant was to formalize a collaborative investigative effort to focus on Internet Crimes Against Children (ICAC) that will include a multiagency task force composed of the Federal Bureau of Investigation (FBI), United States Custom Service (USCS), United States Postal Service (USPS), United States Department of Homeland Security, Division of Immigration and Enforcement (ICE), United States Attorney Western District, and the King County Prosecutor's office to conduct investigation, prevention, and capacity-building activities.  We tested the SPD's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Of the $682,439 expended as of December 31, 2003, we tested transactions totaling $114,311 and found some transactions were unallowable.  In brief, we found:

The SPD spent $1,611 on hats and bags for program instructors that were not approved in the grant budget.

	The SPD charged the grant $225 for Amber Alert posters before receiving a grant adjustment notice from OJJDP.

	The SPD does not have a formal methodology for evaluating the performance of the grant.

Subsequent to our audit, OJP approved the $1,836 in unallowable expenditures.  OJP also approved SPD's plan and timeline for implementing additional performance measures for reporting program outcomes.  These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.